Audit Report




OIG-12-065
RECOVERY ACT: The Community Development Financial
Institutions Fund Should Revise Policies and Procedures to
Clarify Eligibility Reviews Under the New Markets Tax Credit
Program



August 3, 2012




Office of
Inspector General
Department of the Treasury
 
Contents


Audit Report

  Results in Brief .........................................................................................   2

  Background .............................................................................................     3

  Finding and Recommendation .....................................................................             7

      CDFI Fund Should Revise Policies and Procedures to Clarify Eligibility Reviews
      Under the New Markets Tax Credit Program ............................................... 7

      Recommendation................................................................................. 10


Appendices

  Appendix     1:       Objectives, Scope, and Methodology .....................................               12
  Appendix     2:       Management Comments ......................................................             13
  Appendix     3:       Major Contributors To This Report .........................................            14
  Appendix     4:       Report Distribution ..............................................................     15


Abbreviations

  ARC                   Administrative Resource Center
  CCME                  Certification, Compliance, Monitoring and Evaluation
  CDE                   Community Development Entity
  CDFI Fund             Community Development Financial Institutions Fund
  GAO                   Government Accountability Office
  NMTC                  New Markets Tax Credit
  OIG                   Office of Inspector General
  QEI                   Qualified Equity Investment




                    The Community Development Financial Institutions Fund Should Revise Policies and
                    Procedures to Clarify Eligibility Reviews Under the New Markets Tax Credit Program
                    (OIG-12-065)                                                                          Page i
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                                         Audit
OIG
The Department of the Treasury
                                                                                         Report
Office of Inspector General




                     August 3, 2012

                     Donna Gambrell, Director
                     Community Development Financial Institutions Fund
                     Department of the Treasury

                     The American Recovery and Reinvestment Act of 20091 (Recovery
                     Act) authorized an additional $3 billion in tax credit authority to the
                     Community Development Financial Institutions (CDFI) Fund for the
                     New Markets Tax Credit (NMTC) Program’s 2008 and 2009
                     allocation rounds ($1.5 billion per round). This report presents the
                     results of our audit of CDFI Fund’s process for reviewing and
                     selecting applicants to receive NMTC allocations during the
                     calendar years 2008 and 2009 allocation rounds.

                     We conducted this audit as part of our ongoing oversight of the
                     Department of the Treasury’s programs established by, and use of
                     funds authorized by, the Recovery Act. Our overall objective is to
                     evaluate management’s accountability, control, and oversight of
                     Recovery Act funds and make recommendations for improving
                     operations and preventing fraud, waste, and abuse with respect to
                     those funds. Through a series of audits, we will report on the CDFI
                     Fund’s accountability, control, and oversight of additional funding
                     provided by the Recovery Act.2 Our audit objective for this report
                     was to assess CDFI Fund’s process for awarding the additional $3
                     billion of new markets tax credit authority to applicants under the
                     calendar years 2008 and 2009 award rounds. See appendix 1 for
                     our objectives, scope, and methodology.




1
  Pub. L. No. 111-5, 123 Stat. 115 (Feb. 17, 2009).
2
  OIG-11-079, RECOVERY ACT: Community Development Financial Institutions Fund Needs to Improve
Its Process for Awarding Assistance to Applicants (July 8, 2011)

                     The Community Development Financial Institutions Fund Should Revise Policies and
                     Procedures to Clarify Eligibility Reviews Under the New Markets Tax Credit Program
                     (OIG-12-065)                                                                      Page 1
Results in Brief
                        Overall, we found that the CDFI Fund timely allocated the
                        additional $3 billion of NMTC authority provided to it by the
                        Recovery Act for the calendar years 2008 and 2009 allocation
                        rounds. While we found no exceptions concerning the review and
                        selection of awardees, we noted that the NMTC Program
                        management did not maintain complete records supporting its
                        reviews of applicants’ eligibility to receive NMTC allocations. That
                        is, the NMTC Program management could not support whether
                        additional due diligence reviews were performed on potential
                        affiliates3 and/or common enterprises4 identified by the program
                        staff. Furthermore, we noted that while the policies and procedures
                        governing the 2008 and 2009 allocation rounds require the due
                        diligence reviews, they did not require that those reviews be
                        documented.

                        We also brought to the attention of NMTC Program management
                        other instances where NMTC policies and procedures were not
                        followed, noting that there was no impact on the awarding of
                        2008 and 2009 NMTC allocations. Specifically, we noted that all
                        documentation related to an applicant’s qualified equity investment
                        was not being forwarded to Legal Counsel for review and that
                        unqualified candidates were not timely notified of their ineligibility
                        to receive a NMTC allocation. We have since been informed by
                        NMTC Program management that the requirements as written in
                        the NMTC policies and procedures were not practical and did not
                        reflect what was intended for these areas.

                        In order to provide CDFI Fund management the opportunity to take
                        corrective actions as early as possible, we communicated our
                        finding during the course of the audit. Management acknowledged

3
  “Any legal entity that Controls, is Controlled by, or is under common Control with, the Applicant.”
(2009 NMTC Policies and Procedures)
4
  “…in addition to assessing whether Applicants meet the definition of the term “Affiliate” found in the
Allocation Application, the Fund will consider: (i) whether the activities described in applications
submitted by separate entities are, or will be, operated or managed as a common enterprise that, in fact
or effect, could be viewed as a single entity; and (ii) whether the business strategies and/or activities
described in applications submitted by separate entities are so closely related that, in fact or effect, they
could be viewed as substantially identical applications.” (2009 NMTC Program Allocation Application)


                        The Community Development Financial Institutions Fund Should Revise Policies and
                        Procedures to Clarify Eligibility Reviews Under the New Markets Tax Credit Program
                        (OIG-12-065)                                                                      Page 2
                        the need to clarify the NMTC policies and procedures with regard
                        to eligibility reviews.

                        To address these matters, we are recommending to the Director of
                        the CDFI Fund that the NMTC Program policies and procedures be
                        revised to require that all due diligence reviews of applicant’s
                        affiliates and/or common enterprises be documented. Furthermore,
                        the NMTC policies and procedures should be revised to clarify the
                        level of documentation necessary for the performance of legal
                        reviews and the timeliness of notifications to ineligible applicants.

                        The CDFI Fund management agreed with our recommendation,
                        stating that it will revise the “NMTC Program Standard Operating
                        Procedures” to include a requirement that due diligence reviews of
                        an applicant's affiliates and/or common enterprises be documented.
                        It will also clarify the level of documentation necessary for the
                        performance of legal reviews and address the timeliness of
                        notifications to ineligible applicants. Management’s response is
                        provided in appendix 2.

Background
                        The CDFI Fund was established by the Riegle Community
                        Development and Regulatory Improvement Act of 19945 to
                        promote economic revitalization and development of low-income
                        and underserved communities. In 2001, the CDFI Fund was
                        delegated the authority to administer the NMTC Program authorized
                        under the Community Renewal Tax Relief Act of 2000.6 The NMTC
                        Program is intended to promote private sector investment in
                        underserved communities by providing incentives to investors in
                        the form of tax credits. Through its allocation authority, the CDFI
                        Fund allocates tax credit authority to a qualified Community
                        Development Entity (CDE) whose primary mission is in serving, and
                        providing capital for, low-income communities and persons. By
                        making qualified equity investments (QEIs) in a CDE, taxpayers can
                        receive a tax credit against their federal income taxes worth 39
                        percent of the value of the amount invested in the CDE over a 7
                        year credit allowance period. In turn, CDEs must use substantially
5
    Pub. L. No. 103-325, 108 Stat. 2160 (Sep. 23, 1994)
6
    Pub. L. No. 106-554, 114 Stat. 2763A (Dec. 21, 2000)

                        The Community Development Financial Institutions Fund Should Revise Policies and
                        Procedures to Clarify Eligibility Reviews Under the New Markets Tax Credit Program
                        (OIG-12-065)                                                                      Page 3
                      all the cash received through QEIs for qualified investments in low-
                      income communities in accordance with their allocation agreements
                      with the CDFI Fund and section 45D (b)(1)(B) of the Internal
                      Revenue Code of 1986.7

                      In order to participate in the NMTC Program, an entity must apply
                      to the CDFI Fund for CDE certification. An entity requesting
                      certification must be a legally established domestic corporation or
                      partnership, have a primary mission of serving and providing
                      investment capital to low-income communities, and maintain
                      accountability to the communities that it serves through
                      representation on the governing or advisory boards of the entity.

                      The CDFI Fund allocates NMTC authority to qualified CDEs through
                      a competitive award process. A CDE applying under a NMTC
                      allocation round must submit an electronic application through
                      “myCDFIFund” system. Once the application submission window
                      closes, applications are processed in the following stages: (1)
                      application intake completeness reviews, (2) applicant eligibility
                      reviews, (3) Phase I application reviews, and (4) Phase II allocation
                      recommendation reviews. It is during intake that applications are
                      screened for completeness by the Bureau of the Public Debt’s
                      (BPD) Administrative Resource Center (ARC)8 where a preliminary
                      review is performed to ensure submission of all required application
                      materials and an official award folder is created. Upon completing
                      the application intake review, ARC forwards the application files to
                      the NMTC Program office where a secondary application intake
                      review is performed randomly to assess overall completeness
                      before the NMTC Program team starts its eligibility review.

                      As part of the application eligibility review process, certain
                      assessments are performed by different groups within the CDFI
                      Fund. For example, the NMTC Program Manager or designee
                      performs eligibility reviews to ensure that no more than one
                      application is submitted by affiliates/common enterprises and
                      reviews the assurances and certifications forms submitted with
                      applications that include general assurances and assurances with

7
  26 U.S.C. §45D, “New Markets Tax Credit”
8
 BPD is a Treasury bureau and through ARC provides franchise services to Treasury bureaus and offices
and other federal agencies.

                      The Community Development Financial Institutions Fund Should Revise Policies and
                      Procedures to Clarify Eligibility Reviews Under the New Markets Tax Credit Program
                      (OIG-12-065)                                                                      Page 4
                        regard to suspension, debarments, and other applicant
                        responsibilities. The Certification, Compliance, Monitoring and
                        Evaluation (CCME) Manager is responsible for performing eligibility
                        reviews with regard to applicants who were previous awardees to
                        ensure they were compliant with their prior award agreements and
                        that undisbursed funds from prior awards do not exceed 5 percent
                        of the total includable awards9 as of the application deadline. In the
                        case of an applicant being a prior NMTC allocatee, the applicant
                        must demonstrate that it has issued and received a certain
                        percentage of QEIs and QEI commitments from investors related to
                        its prior allocation awards before it is eligible for another. Any
                        concerns arising from eligibility reviews are forwarded to the CDFI
                        Fund’s Legal Counsel for review.

                        An applicant who is deemed eligible is forwarded to Phase I of the
                        application review process which is organized and managed by the
                        NMTC Program Manager. During Phase I, each application is
                        reviewed and scored by an Application Review Team (review team)
                        of up to three reviewers comprised of internal CDFI Fund staff and
                        external reviewers from government or private industry having
                        knowledge and experience in the areas of business, real estate,
                        financing of community based organizations, and economic
                        development. The review team is led by an Application Review
                        Team Leader (team leader) who is either a CDFI Fund staff person
                        or a reviewer with previous NMTC review experience and is
                        responsible for ensuring that reviews are complete and timely,
                        comments are of high quality, scores are consistent with
                        comments and guidance, and responds to technical questions. Each
                        application is evaluated on the following four evaluation criteria:
                        (1) business strategy, (2) community impact, (3) management
                        capacity, and (4) capitalization strategy. Each criterion is worth 25
                        points for a total score of 100 points. However, applicants may
                        also receive up to 10 additional priority points for demonstrating
                        intent to make investments in unrelated entities (5 points) and
                        having track records of serving disadvantaged businesses and
                        communities (5 points).

                        It is the responsibility of each review team member to
                        independently score and provide written justifications on each of

9
    Awards made under the Bank Enterprise Award, CDFI and Native Initiative programs.

                        The Community Development Financial Institutions Fund Should Revise Policies and
                        Procedures to Clarify Eligibility Reviews Under the New Markets Tax Credit Program
                        (OIG-12-065)                                                                      Page 5
the four evaluation criteria and recommend to either award or not
award a NMTC allocation. In the case of a scoring anomaly
between reviewers, the application is re-scored by a fourth
independent reviewer.

Once Phase I reviews are complete, the NMTC Program Manager
compiles reviewer recommendations and ranks highly qualified
applicants in descending order based upon their total aggregate
business strategy and community impact scores, inclusive of
adjusted priority points. Prior to the commencement of Phase II
reviews, the pool of highly qualified applicants who were previous
awardees are reviewed by CCME for potential compliance scoring
adjustments of up to a 5 point reduction that is based on the
applicants reporting history with the CDFI Fund. The final ranking
scores (e.g., Phase I scores or compliance adjusted scores) are
generally used to determine the order for allocation
recommendation during Phase II reviews performed by the
Allocation Recommendation Review Panel (recommendation panel).
The recommendation panel consists of a Lead Panelist, being a
CDFI Fund staff person and a Panel Manager from the NMTC
Program team. The Lead Panelist reviews applications, Phase I
reviewer comments, performs due diligence when necessary, and
makes recommendations to the Panel Manager. The Panel Manager
is primarily responsible for guiding the recommendation panel and
making recommendations to the selecting official, usually the
NMTC Program Manager. Once an applicant is selected, a “Notice
of Allocation” is sent containing the general terms and conditions
with which that the awardee (hereinafter referred to as allocatee)
must comply. Legal Counsel drafts the allocation agreements that
are signed by the allocatee.

As of the 2011 allocation round, the NMTC Program has made 664
awards allocating $33 billion of tax credit authority. Of the
authority awarded, $3 billion was provided through the Recovery
Act for the calendar year 2008 and 2009 allocation rounds,
thereby increasing the allocation authority for those years from
$3.5 billion to $5 billion each. For NMTC allocations provided
through the Recovery Act, the CDFI Fund awarded $1.5 billion in
NMTC allocations to 32 CDEs for the 2008 round and $1.5 billion
to 24 CDEs in the 2009 round. The “New Markets Tax Credit


The Community Development Financial Institutions Fund Should Revise Policies and
Procedures to Clarify Eligibility Reviews Under the New Markets Tax Credit Program
(OIG-12-065)                                                                      Page 6
          Program Allocation Process (2008 Round)” and “New Markets Tax
          Credit Program Allocation Process (2009 Round)” (collectively the
          NMTC policies and procedures) were used to govern the process
          by which applicants were evaluated and awarded NMTC allocations
          for those applicable award rounds.

Finding
          CDFI Fund Should Revise Policies and Procedures to
          Clarify Eligibility Reviews Under the New Markets Tax
          Credit Program

          In accordance with the NMTC policies and procedures, reviews are
          performed to determine an applicant’s eligibility to be considered
          for a NMTC allocation award. These reviews are performed to
          ensure that no more than one application is submitted by an
          applicant and its affiliates and/or common enterprises and that an
          applicant who was a previous awardee under a CDFI Fund program
          complied with the prior award agreement and that undisbursed
          award funds do not exceed 5 percent of total includable awards
          outstanding. We found that while CDFI Fund personnel performed
          eligibility reviews, documentation was not maintained to support all
          reviews with regard to the allocatees under the 2008 and 2009
          Recovery Act allocation rounds. Furthermore, the NMTC policies
          and procedures do not include a requirement to document the
          results of eligibility reviews.

          Affiliates/Common Enterprises

          In order to ensure that all applicants have an equal opportunity to
          receive an allocation and to maximize the value of limited resources
          in reviewing applications, the NMTC Program requires that only one
          application may be submitted by an entity and its common affiliate
          for each allocation round. According to the NMTC policies and
          procedures, the NMTC Program Manager or designee works with
          Legal Counsel to ensure that no more than one application is
          submitted from an affiliated family of entities and/or a family of
          entities that may appear to be operated or managed as a common
          enterprise. If potential affiliates and/or common enterprises are
          identified, the NMTC Program Manager and Legal Counsel are to
          conduct additional due diligence which may include analysis of

          The Community Development Financial Institutions Fund Should Revise Policies and
          Procedures to Clarify Eligibility Reviews Under the New Markets Tax Credit Program
          (OIG-12-065)                                                                      Page 7
                        organizational documents, members of governing and advisory
                        boards, staff, and contractual agreements to determine the
                        relationships of the entities.

                        We found that NMTC program management did not maintain
                        records supporting whether due diligence was performed on
                        potential affiliates/common enterprises discovered during the
                        eligibility reviews of the 2008 and 2009 Recovery Act allocation
                        rounds. A NMTC Program analyst prepared spreadsheets
                        identifying 20 and 31 possible affiliates/common enterprises during
                        the 2008 and 2009 allocation rounds, respectively.10 The
                        spreadsheets were forwarded to NMTC program management for
                        additional review; however, NMTC program management could not
                        provide documentation to support that additional due diligence was
                        performed to determine the relationship of the entities. The NMTC
                        Program Manager explained that cursory reviews were performed
                        using keyword searches of data from electronic applications, and in
                        most cases, these cursory reviews would exclude applicants as
                        affiliates. Although no affiliates/common enterprises were identified
                        from the spreadsheet data, the cursory reviews were not
                        documented.

                        The Government Accountability Office (GAO) established standards
                        for internal control in the federal government. Those standards
                        provide that control activities occur at all levels and functions of
                        the entity and include a wide range of diverse activities to include
                        the creation and maintenance of related records which provide
                        evidence of execution of these activities as well as appropriate
                        documentation. Furthermore, internal control and all transactions
                        and other significant events need to be clearly documented, and
                        the documentation should be readily available for examination. The
                        requirement for documentation should appear in management
                        directives, administrative policies, or operating manuals and may be
                        in paper or electronic form. All documentation and records should
                        be properly managed and maintained.11

                        Currently, the NMTC policies and procedures do not include a
                        requirement that eligibility reviews by NMTC Program staff and due

10
     The 20 and 31 applicants included non-Recovery Act allocatees.
11
     GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal Government, (November 1999)

                        The Community Development Financial Institutions Fund Should Revise Policies and
                        Procedures to Clarify Eligibility Reviews Under the New Markets Tax Credit Program
                        (OIG-12-065)                                                                      Page 8
diligence reviews performed by the NMTC Program Manager or
designee in conjunction with Legal Counsel be documented.

Other Matters

During our testing of eligibility reviews, we noted other matters
which we brought to the attention of the NMTC Program
management concerning instances where NMTC staff did not
always follow NMTC policies and procedures when reviewing
applicants under the 2008 and 2009 allocation rounds. However,
we were informed that certain procedures noted below were not
practical and did not impact the NMTC allocation process.

Legal Review

In accordance with NMTC policies and procedures, if a NMTC
applicant is a prior awardee under a CDFI Fund program, the
applicant will be reviewed for compliance with award agreements
and for undisbursed funds outstanding. In the case of a previous
NMTC allocatee, the applicant will be reviewed to ensure that it
has issued and received a certain percentage of QEIs and QEI
commitments relating to its prior allocation awards. The CCME
staff performs reviews to verify that private investors made QEIs in
an applicant that received prior allocations in exchange for the right
to claim a NMTC. In cases where an applicant has yet to receive all
of the required cash investments, the applicant must obtain
investor agreements showing a commitment to provide funds by
specified dates. Investor agreements are forwarded to Legal
Counsel for review and verification that the investor commitments
are valid.

The NMTC policies and procedures applicable to the 2008 and
2009 allocation rounds required that CCME staff forward all QEI
documentation to Legal Counsel for review. When we identified
that all documentation was not provided to Legal Counsel, we were
informed that the intent was to have Legal Counsel review “all”
documentation related to those applicants claiming only investor
commitments (e.g., investor agreements), not those applicants who
received cash investments.



The Community Development Financial Institutions Fund Should Revise Policies and
Procedures to Clarify Eligibility Reviews Under the New Markets Tax Credit Program
(OIG-12-065)                                                                      Page 9
           Ineligibility Letters

           We also found that NMTC program management did not promptly
           notify four applicants who failed the QEI issuance requirements in
           the 2008 and 2009 allocation rounds (two per round) within 5
           business days as required in the NMTC policies and procedures. For
           those applicants, the notification of ineligibility letters were sent 49
           to 73 days after the CCME staff determined the applicants’ failure
           to meet QEI issuance requirements. When asked about delay in
           notifications, CCME officials were not sure as to why the policy
           stated 5 days, but determined that it was not practical. In addition,
           we were told that notifying applicants of their ineligibility within 5
           days had no impact on the applicant because they had no right to
           appeal the CDFI Fund’s determinations.

           Overall, we found that the NMTC policies and procedures need
           clarification regarding eligibility reviews and documentation
           requirements. Lack of clearly defined policies and procedures may
           result in personnel performing tasks contrary to management’s
           policy and program requirements. This could also result in
           duplication of efforts, omission of key procedures, and confusion
           among personnel regarding their roles and responsibilities. This may
           also result in an unqualified CDE being awarded allocation
           authority.

           CDFI Fund management acknowledged our finding and agreed that
           the NMTC policies and procedures need clarification regarding
           eligibility reviews.

Recommendation
           We recommend that Director of the CDFI Fund do the following:

           Ensure that the NMTC Program policies and procedures are revised
           to include a requirement that due diligence reviews of an
           applicant’s affiliates and/or common enterprises be documented
           and to clarify the level of documentation necessary for the
           performance of legal reviews and the timeliness of notifications to
           ineligible applicants.



           The Community Development Financial Institutions Fund Should Revise Policies and
           Procedures to Clarify Eligibility Reviews Under the New Markets Tax Credit Program
           (OIG-12-065)                                                                     Page 10
Management Response

CDFI Fund management agreed with our recommendation, stating
that it will revise the NMTC Program Standard Operating
Procedures to include a requirement that due diligence reviews of
an applicant's affiliates and/or common enterprises be documented.
It will also clarify the level of documentation necessary for the
performance of legal reviews and address the timeliness of
notifications to ineligible applicants.

OIG Comment

Management’s planned action meets the intent of our
recommendation.




                                  ******

We appreciate the courtesies and cooperation provided to our staff
during this audit. If you wish to discuss this report, you may
contact me at (202) 927-5784 or Colleen McElwee, Audit
Manager, at (202) 927-5839. Major contributors to this report are
provided in Appendix 3.


/s/

Donna Joseph
Audit Director




The Community Development Financial Institutions Fund Should Revise Policies and
Procedures to Clarify Eligibility Reviews Under the New Markets Tax Credit Program
(OIG-12-065)                                                                     Page 11
Appendix 1
Objectives, Scope, and Methodology




In January 2010, we initiated an audit of the additional funding
provided to the CDFI Fund through the Recovery Act to determine
whether an appropriate level of accountability, control, and
oversight of the NMTC Program had been established. Specifically,
we reviewed the CDFI Fund’s process for determining eligibility of
potential award recipients' and for allocating new markets tax
credits, authorized by the Recovery Act, to applicants under the
calendar years 2008 and 2009 award rounds.

In performing our work, we interviewed key CDFI Fund personnel,
reviewed laws and regulations governing the New Markets Tax
Credit Program, including related Recovery Act provisions, internal
policies and procedures, findings reported in GAO’s 2004, 2007,
and 2010 reports, and 2008 and 2009 guidance for CDFI Fund
staff, team leaders and reviewers. We also reviewed CDFI’s
process for identifying affiliates/common enterprises and for
notifying ineligible applicants from the population of all 2008 and
2009 round applicants.

We tested the CDFI Fund’s eligibility assessments of applicants and
their documentation of the process. We applied statistical sampling
to select a random sample of 30 applications for testing from the
universe of 56 Recovery Act awardees from the 2008 and 2009
rounds. We determined our sample size based on a 90 percent
confidence level, an expected error rate of 37 percent, and 10
percent sample precision. As a result, we tested $1.845 billion (61
percent) of the $3 billion of Recovery Act funds that had been
awarded.

We conducted our fieldwork at the CDFI Fund in Washington, D.C.,
from March 2010 through December 2011.

Our audit was conducted in accordance with generally accepted
government auditing standards for performance audits. Those
standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.



The Community Development Financial Institutions Fund Should Revise Policies and
Procedures to Clarify Eligibility Reviews Under the New Markets Tax Credit Program
(OIG-12-065)                                                                     Page 12
Appendix 2
Management Response




The Community Development Financial Institutions Fund Should Revise Policies and
Procedures to Clarify Eligibility Reviews Under the New Markets Tax Credit Program
(OIG-12-065)                                                                     Page 13
Appendix 3
Major Contributors To This Report




Treasury Office of Inspector General

Donna Joseph, Director
Colleen McElwee, Audit Manager
Cynthia Milanez, Audit Manager
Syed Owais Rizvi, Auditor-in-Charge
Roberta Wright, Auditor
Anne Ryer, Auditor
Nicholas Slonka, Auditor
Alexander Milne, Auditor
Dana Duvall, Referencer




The Community Development Financial Institutions Fund Should Revise Policies and
Procedures to Clarify Eligibility Reviews Under the New Markets Tax Credit Program
(OIG-12-065)                                                                     Page 14
Appendix 4
Report Distribution




Department of the Treasury

    Assistant Secretary for Management of the Treasury, Chief
       Financial Officer, and Chief Performance Officer
    Deputy Chief Financial Officer
    Director, Strategic Planning and Performance Management

Community Development Financial Institutions Fund

    Director
    Deputy Director
    Senior Advisor, Office of Director
    Senior Advisor, Office of the Deputy Director
    Senior Program Analyst, Office of the Director
    Program Manager, NMTC Program


Office of Management and Budget

    OIG Budget Examiner

Recovery and Accountability and Transparency Board




The Community Development Financial Institutions Fund Should Revise Policies and
Procedures to Clarify Eligibility Reviews Under the New Markets Tax Credit Program
(OIG-12-065)                                                                     Page 15
